No. 20-363
FREDERICK R. WHATLEY,
Petitioner,
v.

WARDEN, GEORGIA DIAGNOSTIC & CLASSIFICATION
CENTER,
Respondent.
CERTIFICATE OF SERVICE
Pursuant to Supreme Court Rule 29.5(a), I certify
a copy of the Reply Brief Of Petitioner was sent via
1st class mail to the U.S. Supreme Court and a digital
copy was sent to counsel for the Respondent by electronic mail on November 9, 2020. The parties have
consented to electronic service.
Sabrina Graham
Sr. Assistant Attorney General
Georgia Office of the Attorney General
Capital Litigation Section
40 Capitol Square, SW
Atlanta, GA 30334
(404) 656-3300
sgraham@law.ga.gov
/s/ Thomas M. Bondy
Counsel of Record

